                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
May 24, 2012

Report Number: A-04-11-00079

Scott Kimbell
Director NGS Program Management Tier II
13550 Triton Park Blvd.
Louisville, KY 40223

Dear Mr. Kimbell:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Overpaid Some Fiscal Year 2008 and 2009
Jurisdiction 13 Inpatient Rehabilitation Facility Claims That Did Not Comply With Transfer
Regulations. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Eric Bowen, Audit Manager, at (404) 562-7789 or through email at
Eric.Bowen@oig.hhs.gov. Please refer to report number A-04-11-00079 in all correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Scott Kimbell


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




 MEDICARE OVERPAID SOME FISCAL
YEAR 2008 AND 2009 JURISDICTION 13
INPATIENT REHABILITATION FACILITY
CLAIMS THAT DID NOT COMPLY WITH
      TRANSFER REGULATIONS



                         Daniel R. Levinson
                          Inspector General

                             May 2012
                           A-04-11-00079
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

An inpatient rehabilitation facility (IRF) is a hospital or a subunit of a hospital whose primary
purpose is to provide intensive rehabilitation services to its inpatient population. Section 1886(j)
of the Social Security Act established a Medicare prospective payment system for IRFs. The
system provides for a predetermined, per-discharge payment. The IRF uses information from a
patient assessment instrument to classify patients into distinct case-mix groups based on clinical
characteristics and expected resource use. Medicare makes a full case-mix group payment to an
IRF that discharges a beneficiary to home or to another institution that is not covered by
Medicare’s transfer regulations. However, pursuant to 42 CFR § 412.624(f), Medicare generally
pays a lesser amount for a transfer case, based on a per diem rate and the number of days that the
beneficiary spent in the IRF.

Federal regulations define a transfer case as one in which (1) the beneficiary’s IRF stay is shorter
than the average stay for nontransfer cases in the case-mix group and (2) the beneficiary is
transferred to another IRF; a short-term, acute-care prospective payment hospital; a long-term-
care hospital; or a nursing home that qualifies for Medicare or Medicaid payments. Whether
Medicare pays for a discharge to home or a transfer depends on the patient status code indicated
on the IRF’s claim.

Previous Office of Inspector General audits identified overpayments to transferring IRFs that did
not comply with Medicare’s transfer regulation. In response to our recommendations, the
Centers for Medicare & Medicaid Services (CMS) implemented an edit in the Common Working
File (CWF) on April 1, 2007, to identify transfers improperly coded as discharges.

During fiscal years (FY) 2008 and 2009, CMS contracted with National Government Services,
Inc. (NGS) to serve as the Medicare Administrative Contractor for Jurisdiction 13. This audit
covered $1,511,722 in Medicare Part A payments related to 60 claims, with dates of service
ending in FY 2009, submitted by 26 IRFs in Connecticut and New York.

OBJECTIVE

Our objective was to determine whether Medicare paid certain FY 2008 and 2009 Jurisdiction 13
IRF claims in accordance with Medicare’s transfer regulations.

SUMMARY OF FINDINGS

Medicare overpaid some FY 2009 Jurisdiction 13 IRF claims that did not comply with transfer
regulations. Because NGS management did not communicate the CMS change request to its
staff, NGS did not review the CWF edit alert reports notifying it that the miscoded claims
required payment adjustment. Accordingly, NGS did not respond appropriately to the CWF edit
alerts, and it incorrectly paid 60 transfer claims as discharges. As a result, Medicare overpaid 26
IRFs by $413,445 for FYs 2008 and 2009.



                                                 i
RECOMMENDATIONS

We recommend that NGS:

   •   recover $413,445 in overpayments,

   •   ensure that it receives and properly addresses future CWF edit alerts in a timely manner,
       and

   •   educate Jurisdiction 13 IRFs on the importance of reporting the correct patient status
       code on transfer claims.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS generally agreed with our recommendations and
described corrective actions that it had taken or planned to take in response to our
recommendations. NGS’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                    Page


INTRODUCTION ................................................................................................................ 1

          BACKGROUND ...........................................................................................................        1
              Prospective Payment System for Inpatient Rehabilitation Facilities .................                                      1
              Transfer Payments for Inpatient Rehabilitation Facilities .................................                               1
              Inpatient Rehabilitation Facility Pricer Program ...............................................                          2
              Prior Office of Inspector General Reports and Centers for Medicare &
                Medicaid Services Corrective Actions............................................................                        2
              National Government Services, Inc. ..................................................................                     2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                   2
               Objective ............................................................................................................   2
               Scope ................................................................................................................   3
               Methodology ......................................................................................................       3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          PROGRAM REQUIREMENTS ....................................................................................                     4
              Federal Regulations ...........................................................................................           4
              Centers for Medicare & Medicaid Services Guidance ......................................                                  4
              National Government Services, Inc., Policies and Procedures ..........................                                    5

          MEDICARE OVERPAYMENTS FOR MISCODED INPATIENT
           REHABILITATION FACILITY CLAIMS ................................................................ 5

          COMMUNICATION PROBLEMS .............................................................................. 5

          RECOMMENDATIONS ............................................................................................... 5

          NATIONAL GOVERNMENT SERVICES, INC., COMMENTS ............................... 6

APPENDIX

          NATIONAL GOVERNMENT SERVICES, INC., COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Prospective Payment System for Inpatient Rehabilitation Facilities

An inpatient rehabilitation facility (IRF) is a hospital or a subunit of a hospital whose primary
purpose is to provide intensive rehabilitation services to its inpatient population. Section 1886(j)
of the Social Security Act (the Act) established a Medicare prospective payment system for
IRFs. The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, began implementing the prospective payment system for cost-reporting periods
beginning on or after January 1, 2002. The system provides for a predetermined, per-discharge
payment. The IRF uses information from a patient assessment instrument to classify patients
into distinct case-mix groups based on clinical characteristics and expected resource use.

Transfer Payments for Inpatient Rehabilitation Facilities

Under the IRF prospective payment system, Medicare makes a full case-mix group payment to
an IRF that discharges a beneficiary to home or to another institution that is not covered by
Medicare’s transfer regulations. However, pursuant to 42 CFR § 412.624(f), Medicare generally
pays a lesser amount for a transfer case, based on a per diem rate and the number of days that the
beneficiary spent in the IRF. Federal regulations define a transfer case as one in which:

       •   the beneficiary’s IRF stay is shorter than the average stay for the non-transfer cases in the
           case-mix group and

       •   the beneficiary is transferred to another IRF; a short-term, acute-care prospective
           payment hospital; a long-term-care hospital; or a nursing home that qualifies for
           Medicare or Medicaid payments.

Whether Medicare pays for a discharge or a transfer depends on the patient status code indicated
on the IRF’s claim. Medicare pays the full discharge payment for two patient status codes: code
01 indicates a discharge to home and code 06 indicates a discharge to home with home health
services. However, Medicare pays the transfer amount for the following patient status codes:

       •   02 — a short-term, acute-care inpatient hospital;

       •   03 — a skilled nursing facility;

       •   61 — a hospital-based, Medicare-approved swing bed 1 within the IRF;

       •   62 — another IRF;


1
    A swing bed is a hospital bed used to provide both long-term-care and acute care.



                                                           1
    •   63 — a long-term-care hospital; and

    •   64 — a Medicaid-only nursing facility.

Inpatient Rehabilitation Facility Pricer Program

To price IRF claims, CMS developed the IRF Pricer program. This program uses information
specific to each IRF and information from each claim, including the patient status code, to
calculate the price on which to base the prospective payment. Provider claims must indicate the
proper patient status codes because the IRF Pricer program uses those codes in determining
whether the claims will be paid as discharges or transfers. The IRF Pricer program automatically
calculates payments for claims with codes 02, 03, 61, 62, 63, or 64 at the per diem rate for
transfers.

Prior Office of Inspector General Reports and Centers for Medicare & Medicaid Services
Corrective Actions

Previous Office of Inspector General audits identified Medicare overpayments that occurred
because IRFs did not comply with Medicare’s transfer regulation. 2 In those reports, we
recommended that CMS implement edits in the Common Working File (CWF) that match
beneficiary discharge dates with admission dates to other providers to identify claims potentially
miscoded as discharges rather than transfers. In response to our recommendations, CMS
implemented an edit on April 1, 2007. CMS’s CWF edit identifies IRF claims with an improper
patient discharge status code and produces an unsolicited informational response (edit alert) to
the appropriate contractor.

National Government Services, Inc.

During fiscal years (FY) 2008 and 2009, CMS contracted with National Government Services,
Inc. (NGS), to serve as the Medicare Administrative Contractor for Jurisdiction 13. This audit
covered $1,511,722 in Medicare Part A payments related to 60 claims, with dates of service
ending in FY 2009, submitted by 26 IRFs in Connecticut and New York. 3

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare paid certain FY 2008 and 2009 Jurisdiction 13
IRF claims in accordance with Medicare’s transfer regulations.
2
 Our previous reports addressed IRF claims coded as discharges to home (report number A-04-04-00008, issued
September 11, 2006), discharges to home with home health services (report number A-04-04-00013, issued
November 2, 2006), and discharges to home or discharges to home with home health services (report number
A-04-09-00059, issued June 29, 2010).
3
 Our review disclosed no NGS Medicare Part A payments for FY 2008 IRF transfer claims with patient status codes
01 or 06 that indicated discharge. All 60 NGS claims and payments identified were for FY 2009.


                                                      2
Scope

Our review covered 60 NGS Medicare Part A payments totaling $1,511,722 that related to 60
transfer claims. These 60 claims had dates of service ending in FY 2009 and were submitted by
26 IRFs in Connecticut and New York. After initial claims payment, the CWF edit identified
these 60 claims as IRF transfers that were incorrectly coded and paid as discharges to home or
discharges to home with home health services.

Our objective did not require an understanding or assessment of the complete internal control
structure of NGS. Therefore, we limited our review to obtaining a general understanding of the IRF
prospective payment system and NGS’s policies and procedures for reviewing claims identified by
the CWF.

We conducted our fieldwork at NGS offices in Indianapolis, Indiana in September 2011.

Methodology

To accomplish our objective, we:

      •    reviewed Federal laws and regulations and CMS guidance concerning IRF transfers;

      •    extracted 321,986 IRF paid claims from CMS’s National Claims History File for FYs
           2008 and 2009;

      •    identified 218 IRF transfer claims nationwide with patient status codes 01 or 06 that
           indicated discharge by refining the nationwide file and excluding certain claims, such as
           claims with lengths of stay equal to or greater than the average length of stay for the case-
           mix group, outlier claims, claims for deceased beneficiaries, claims not primarily paid by
           Medicare, and claims paid to Maryland providers; 4

      •    identified 60 IRF transfer claims paid by NGS, out of 218 claims in the refined
           nationwide file;

      •    reviewed CMS’s CWF claims history for the 60 claims to verify that the selected claims
           had not been canceled or superseded by corrected claims;

      •    sent the 60 claims to NGS officials to verify that the claims were miscoded and to determine
           the cause of the miscoding;

      •    interviewed NGS officials to understand how they processed IRF claims and to determine
           why NGS made payments for the miscoded claims;




4
    Maryland is exempt from the prospective payment system.

                                                        3
   •   used CMS’s Pricer program to reprice each improperly paid claim in our sample to
       determine the transfer payment amount, compare the repriced payment with the actual
       payment, and determine the value of the overpayment; and

   •   discussed the results of our review with NGS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATIONS

Medicare overpaid some FY 2009 Jurisdiction 13 IRF claims that did not comply with transfer
regulations. Because NGS management did not properly communicate the CMS change request
to its staff, NGS did not review the CWF edit alert reports notifying it that the miscoded claims
required payment adjustment. Accordingly, NGS did not respond appropriately to the CWF edit
alerts, and it incorrectly paid 60 transfer claims as discharges. As a result, Medicare overpaid 26
IRFs by $413,445 for FY 2008 and 2009.

PROGRAM REQUIREMENTS

Federal Regulations

Section 1886(j)(1)(E) of the Act authorized the Secretary of the Department of Health and
Human Services to adjust prospective payments to account for the early transfer of a beneficiary
from an IRF to certain other facilities. Pursuant to implementing regulations, 42 CFR §§
412.602 and 412.624(f)(1), IRFs receive an adjusted prospective payment if (1) the beneficiary’s
IRF stay is shorter than the average stay for nontransfer cases in the case-mix group and (2) the
beneficiary is transferred to another IRF; a short-term, acute-care prospective payment hospital;
a long-term-care hospital; or a nursing home that qualifies for Medicare or Medicaid payments.

Pursuant to 42 CFR § 412.624(f)(2), Medicare pays for transfer cases on a per diem basis. CMS
calculates the per diem payment rate by dividing the full case-mix group payment rate by the
average length of stay for the case-mix group. CMS then multiplies the per diem rate by the
number of days that the beneficiary stayed in the IRF before being transferred. Medicare makes
an additional half-day payment for the first day.

Centers for Medicare & Medicaid Services Guidance

The Medicare Claims Processing Manual, chapter 3, section 140.3, lists the patient status
codes that identify a transfer case, the code definitions, and examples of appropriate use.
When an IRF uses these transfer codes, the claims processing system generates a per diem
transfer payment to the IRF rather than a full case-mix group payment.



                                                  4
Effective April 1, 2007, CMS implemented a CWF edit that identifies IRF transfer claims
miscoded as discharges. When the CWF edit identifies transfer claims prior to payment, it cancels
the claim. When it identifies a claim after payment, the CWF generates an edit alert that requires the
Medicare Administrative Contractor to take action to correct the claim.

National Government Services, Inc., Policies and Procedures

NGS policies and procedures require taking appropriate action to correctly process
inpatient bills with improper patient discharge status codes. NGS is notified through an
edit alert report that the CWF identified a miscoded claim. The claims processor at NGS
cancels the claim, and the provider is required to resubmit a corrected claim.

MEDICARE OVERPAYMENTS FOR MISCODED INPATIENT REHABILITATION
FACILITY CLAIMS

Medicare overpaid 60 FY 2009 Jurisdiction 13 IRF claims that did not comply with transfer
regulations because NGS did not review the CWF edit alerts notifying it that the miscoded
claims required payment adjustment. As a result, Medicare overpaid 26 IRFs by $413,445 for
FY 2008 and 2009.

During our audit, NGS canceled the 60 miscoded claims and has been working with the IRFs to
correct the claims. At the conclusion of our fieldwork 18 claims ($183,704 in overpayments)
were correctly adjusted, 26 claims ($140,033 in overpayments) were still pending provider
resubmissions, and 16 claims ($89,708 in overpayments) were not resubmitted.

COMMUNICATION PROBLEMS

The CMS edit alert report notified NGS staff that miscoded claims required payment adjustment.
However, NGS management did not communicate to its staff the CMS change request that
implemented the edit alert report and required contractors to adjust the identified claims.

According to NGS, it identified and corrected the communication problems that caused the
miscoded claims to remain uncorrected. Additionally, NGS reviewed the subsequent CWF edit
alert reports and verified that the edit is currently working and that NGS staff is responding
appropriately.

RECOMMENDATIONS

We recommend that NGS:

   •   recover $413,445 in overpayments,

   •   ensure that it receives and properly addresses future CWF edit alerts in a timely manner,
       and




                                                  5
   •   educate Jurisdiction 13 IRFs on the importance of reporting the correct patient status
       code on transfer claims.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In written comments on our draft report, NGS generally agreed with our recommendations and
described corrective actions that it had taken or planned to take in response to our
recommendations. NGS’s comments are included in their entirety as the Appendix.




                                                6
APPENDIX
